ES, IG-98-033, Early Payment and Billing Frequency on Long-Term Contracts
EARLY PAYMENT AND BILLING
FREQUENCY ON LONG-TERM CONTRACTS
IG-98-033
Executive Summary
Introduction
During the 1996 negotiation of the Space Flight Operations Contract,
(1) the NASA Office of Inspector General
(OIG) expressed concerns about the Agency agreeing to early payments and
more frequent billings because of related problems with other long-term
contracts.  In March 1997, the OIG issued a management letter (see
Appendix E) on the payment and billing practice.  Nevertheless, NASA
negotiated with United Space Alliance for early payment of its invoices.
NASA's position is that the United Space Alliance adequately lowered the
available award fee
(2) as consideration
(3) for early payment.  However, we believe
the early payment practice was not in the best interest of the Government.
Objective
Our objective was to assess the adequacy of consideration NASA obtained for
providing early payment and more favorable billing frequency terms on
long-term contracts.
(4)  Appendix A contains additional details
on objective, scope, and methodology.
Results of Audit
NASA needs to improve policies with regard to approving and assuring
adequate consideration is received for early payment and more favorable
billing frequency terms.  Specifically, Agency policies did not discourage
routine use of these negotiation tools, provide guidance on determining
their cost to the U.S. Government over the life of the contract for purposes
of negotiating consideration, or encourage use of invoice-based discounts
as a method to ensure adequate consideration is received for early payment.
NASA received consideration for all four long-term, high-value contracts
reviewed for which favorable early payment and more frequent billing terms
were granted by NASA Centers.
(5)  Over the life of the contracts, the
more favorable terms will cost the U.S. Treasury an estimated $36.1 million
(6) in interest expense for which the Centers
stated they received $104.2 million
(7) as consideration.  However, the
consideration amount that NASA will actually receive, and therefore its
adequacy, cannot be precisely determined until contract completion.  The
dollar value of these concessions to the contractors is dependent on the
U.S. Treasury interest rates which fluctuate over time.  Therefore, at the
time of contract award, the appropriate level of consideration must be
estimated.  Additionally, we found that the consideration associated with
granting these concessions was overstated in some cases.  The practice of
early payment and more frequent billing could conflict with Federal
regulations that require the value of consideration to be greater than the
cost to the U.S. Treasury and should be clearly specified to ensure proper
use.  As an alternative, contractors can offer discounts on individual
invoices and NASA management can take the discounts when it is advantageous
to the Government.
Recommendations and Management's Response
This report contains recommendations aimed at controlling the use and
approval of early payment and more frequent billing terms during contract
negotiations, and encourages the use of invoice-based discounts.  Management
did not concur with the recommendations contained in a draft of this report
and provided additional information that we agreed was a sufficient basis
for revising our recommendations.  We request additional management comments
on the revised audit recommendations.
FOOTNOTES
1. Contract NAS9-20000, United Space Alliance.
2. Award fee is an amount a contractor may earn in whole or in part based on evaluations of performance during the contract period. The amount of award fee available is negotiated and included in the contract.
3. Consideration can mean reduced available award fee, a waiver of negotiations on change orders, a fee waiver, or other compensation.
4. At our request, the NASA Office of Procurement, Program Operations Division, identified six current contracts that receive early payment or more frequent billing.  We reviewed the four largest in terms of dollar value.
5. Marshall Space Flight Center, Johnson Space Center, and Langley Research Center.
6. Early payment and more frequent billing terms will cost the U.S. Treasury $34.9 million and $1.2 million, respectively.  At contract definitization, the combined cost to the U.S. Treasury was $32.7 million.  Changes in contract values and interest rates have increased the cost to the U.S. Treasury.
7. The amount comprises award fee pool concessions of $5.9 million and $56.9 million by Rocketdyne and United Space Alliance to Marshall Space Flight Center and Johnson Space Center, and a fixed fee waiver by Boeing Commercial Airplane Group of $41.4 million to Langley Research Center.